APPENDIX TABLE OF CONTENTS
Judgment of the Third Circuit Court of Appeals
(January 30, 2019).............................................

la

Opinion of the Third Circuit Court of Appeals
(January 30, 2019)..........................................

3a

Order of the Third Circuit Granting Appellant
Motion to file Supplemental Appendix
(May 10, 2019)........................................................ 9a
Memorandum Opinion of the District Court of
Pennsylvania (May 12, 2017)............................. 10a
Order of the District Court of Pennsylvania
(May 15, 2017)............................................

19a

Oral Decision of the District Court
(November 7, 2017)...................

21a

Order of the Third Circuit Denying Surpetition for
Rehearing (May 21, 2019)................................... 35a
Affidavit in Support of
Appellant’s Missing Evidence

37a

Schlosser’s Exhibit List

39a

Criminal Judgment
(August 14, 2017)

41a

Indictment
(April 6, 2016)

49a

Notice of Intent to Offset
(May 2, 2018)............

63a

Summary of Witness Testimony and Records

68a

APPENDIX TABLE OF CONTENTS (Cont.)
Trial Exhibit 22—IRS/CI Memorandum of
Interview (June 15, 2009)................................ 71a
SSA Certified FOIA Response
(January 28, 2013)...........

73a

Trial Exhibit 10—Includes 41a Response to Bank
Re: SSN & Religious Beliefs (April 20, 2006). 74a
Trial Exhibit 8 Lawyers SSN Objection to PennDOT
(April 8, 2004).................................................... 80a
Attorney Wenger Letter to PennDOT for Appellant
(April 8, 2004).................................................... 81a
Response from SSA Commissioner
Re: No SSN on DL (October 20, 2004)

84a

App.la
JUDGMENT OF THE THIRD CIRCUIT
COURT OF APPEALS
(JANUARY 30, 2019)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
UNITED STATES OF AMERICA,
v.
JAMES KERR SCHLOSSER,
Appellant.
No. 17-2872
Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Criminal Action No. 5-16-cr-00178-00l)
District Judge: Honorable Jeffrey L. Schmehl
Submitted Under Third Circuit L.A.R. 34.1(a)
January 8, 2019
Before: AMBRO, KRAUSE, and FUENTES,
Circuit Judges.
This cause came on to be heard on the record before
the United States District Court for the Eastern District
of Pennsylvania and was submitted pursuant to Third
Circuit L.A.R. 34.1(a) on January 8, 2019.
On consideration whereof, IT IS ORDERED AND
ADJUDGED by this Court that the judgment of the
District Court dated August 15, 2017, is hereby affirmed

as

App.2a
in part and vacated and remanded in part. All of the
above in accordance with the opinion of this Court.
ATTEST:
/s/ Patricia S. Dodszuweit
Clerk

App.3a
OPINION* OF THE THIRD CIRCUIT
COURT OF APPEALS
(JANUARY 30, 2019)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
UNITED STATES OF AMERICA,
v.
JAMES KERR SCHLOSSER,
Appellant.
No. 17-2872
Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Criminal Action No. 5-16-cr-00178-001)
District Judge: Honorable Jeffrey L. Schmehl
Submitted Under Third Circuit
L.A.R. 34.1(a) January 8, 2019
Before: AMBRO, KRAUSE, and FUENTES,
Circuit Judges.
AMBRO, Circuit Judge
James Kerr Schlosser appeals his convictions for
several tax offenses. His defense at trial was that he
was misled to believe he could avoid his tax obligations
* This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

App.4a
by renouncing his federal citizenship. Although we
vacate one conviction in light of a superseding decision
of the Supreme Court, we affirm the District Court’s
decision to limit the admission of documentary evidence
to support Schlosser’s beliefs about the tax system.

Background
In 1994, Schlosser attended a tax seminar run by
one Jeffrey Thayer, who held himself out as a lawyer.
At the seminar, Schlosser learned of the distinction
between “federal citizenship” and “state citizenship,”
and he discovered that by renouncing the former he
would purportedly relieve himself of the obligation to
pay federal income taxes. Armed with this newfound
information, Schlosser filed a document with a county
official in New Jersey purporting to repudiate his
Social Security number in order to reject his federal
citizenship. He has not paid federal income taxes
since.
The IRS uncovered Schlosser’s tax deficiency in
2006 and ordered him to pay back taxes. When he
disputed his tax obligations, both the Tax Court and
our Court rejected his arguments as “frivolous.” See
Schlosser v. Comm’r of Internal Revenue, 94 T.C.M.
(CCH) 346, at *3 (T.C. 2007); Schlosser v. Comm’r of
Internal Revenue, 287 F. App’x 169, 171 (3d Cir. 2008).
He nonetheless persisted in refusing to pay taxes.
Schlosser’s persistence ultimately led to criminal
action in 2016. He faced charges of “corruptly” impeding
the “due administration” of the tax laws, see 26 U.S.C.
§ 7212(a), and of “willfully” failing to pay taxes for
2012 and 2013, see id § 7203. At trial, his principal
defense was good faith—that is, Schlosser genuinely
believed that he had no legal obligation to pay taxes

App.5a
because of what he had learned at the Thayer seminar.
He testified in detail about the seminar, but the Dis­
trict Court excluded from evidence certain materials
from the seminar that had informed Schlosser’s beliefs
about the tax laws. As the Court later explained in
a post-trial decision, the seminar materials were
“duplicative” of Schlosser’s testimony and their pre­
sentation to the jury would have been “a poor use of
judicial resources.” App. 13.
The jury convicted Schlosser on all counts, and he
was sentenced to nearly four years in prison and
ordered to pay over $400,000 in restitution. His appeal
centers on the District Court’s decision to exclude the
seminar materials from evidence.

Discussion
We begin with one point that is not in dispute.
The Government concedes that the evidence was
insufficient to convict Schlosser for “corruptly’ imped­
ing the “due administration” of the tax laws under 26
U.S.C. § 7212(a). After the trial, the Supreme Court
held that a conviction under § 7212(a) requires inter­
ference with “a particular administrative proceeding”
that was either “pending” or “reasonably foreseeable
by the defendant.” Marinello v. United States, 138 S.
Ct. 1101, 1109-10 (2018). Because the jury was not
instructed about this requirement, we vacate Schlosser’s
conviction under 26 U.S.C. § 7212(a). and because we
vacate the conviction under § 7212(a), we must remand
for a revision of the loss calculation and restitution
order and for resentencing on Schlosser’s remaining
counts of conviction.
All that remains in dispute is the District Court’s
decision to exclude from evidence certain materials

App.6a
from the Thayer seminar. The statute of conviction re­
quired the Government to prove that Schlosser
“willfully” failed to pay his taxes in 2012 and 2013. See
26 U.S.C. § 7203. In this context, “willfulness” means
“a voluntary, intentional violation of a known legal
duty.” Cheek v. United States, 498 U.S. 192, 200
(1991) (quoting United States v. Pomponio, 429 U.S.
10, 12 (1976)). Thus if a jury believes that a defendant
had a “good-faith misunderstanding” about the law he
disobeyed—even a misunderstanding that was not
“objectively reasonable”—then the Government has
failed to carry its burden as to willfulness. Id at 202.
Schlosser’s defense at trial was exactly this: his failure
to pay his taxes was not willful because he believed,
per Thayer’s seminar, that he had renounced his feder­
al citizenship. As a result, the key decision facing the
jury was whether this belief constituted a good-faith
misunderstanding of the law. Given the task before
the jury, we must decide whether the District Court
acted within its discretion in allowing Schlosser to
testify extensively as to the content of the seminar
while excluding from evidence the actual materials
Schlosser received at the seminar.
We discern no abuse of discretion. The District
Court allowed Schlosser to testify comprehensively
about the Thayer seminar. The admission of seminar
materials, therefore, would have been piling on. This
is especially true in light of the intervening tax litiga­
tion in which Schlosser was told that the theories
espoused at the Thayer seminar were nonsense. In
2008, our Court rejected as “baseless” and “patently
frivolous” Schlosser’s argument that he was not a fed­
eral citizen subject to federal taxation. Schlosser, 287
F. App’x at 170-71. This echoed the statement of the

App.7a
Tax Court that Schlosser had “advanced nothing but
frivolous and meritless arguments with respect to his
underlying tax liability.” Schlosser, 94 T.C.M. (CCH)
346, at *3. Whatever Schlosser thought he learned at
Thayer’s 1994 seminar, these decisions should have
set him straight. At the very least, they justified the
District Court’s decision not to let him needlessly pile
seminar materials on top of his extensive testimony
about that seminar.
In other words, the litigation culminating in our
2008 decision makes the value of the 1994 Thayer
seminar slim at best. This sets Schlosser’s case apart
from those in which excluded evidence was central to
a tax protestor’s good-faith misunderstanding of the
law. See, e.g., United States v. Lankford, 955 F.2d
1545, 1551 (llth Cir. 1992) (holding that tax expert
should have been allowed to testify about the reason­
ableness of a defendant’s good-faith belief that certain
payment was a non-taxable gift). As the entity charged
with ensuring that the evidence presented at trial
does not waste time, see Fed. R. Evid. 611(a)(2), the
District Court did not abuse its discretion in cutting
off evidence about the Thayer seminar after extensive
testimony on the issue, see Fed. R. Evid. 403(b).
Nor were the excluded materials from the Thayer
seminar relevant to any of Schlosser’s other reasons
for thinking he was free from federal taxation. First,
he thought his Social Security number was invalid
because he obtained it before he turned eighteen.
Without a valid Social Security number, he concluded
he owed no federal taxes. Second, he believed that sev­
eral mailings from the ERS waived the Government’s
right to collect taxes from him. See, e.g., App. 850

App.8a
(mail from IRS with code MFR-01, meaning “not re­
quired to be mailed or filed”); App. 1165 (mail from
IRS invalid because it was not signed in ink); App.
1168-73 (IRS failed to respond to 2012 letter from
Schlosser and thus waived its right to collect taxes).
Finally, Schlosser believed that the Social Security
Act corresponded with the “mark of the beast” in
Christian eschatology. Compare 42 U.S.C. § 666 (a
portion of the Social Security Act), with Revelation
13:16-18 (the number of the beast is 666). As a result,
he felt he could not pay taxes consistent with his reli­
gious beliefs. See, e.g., App. 184:1-13; App. 1021:1420. Materials from the Thayer seminar have no
bearing on Schiosser’s views on these topics.
In sum, we affirm the convictions for willfully
failing to pay taxes under 26 U.S.C. § 7203 and vacate
the conviction for corruptly impeding the collection of
taxes under 26 U.S.C. § 7212(a). As a result, we remand
to the District Court to recalculate the loss amount for
sentencing purposes and to correct the restitution
award. See United States v. Diaz, 639 F.3d 616,61920 (3d Cir. 2011). This will result in resentencing.

App.9a
ORDER OF THE THIRD CIRCUIT
GRANTING APPELLANT MOTION
TO FILE SUPPLEMENTAL APPENDIX
(MAY 10, 2019)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
UNITED STATES OF AMERICA,
v.
JAMES KERR SCHLOSSER,
Appellant
No. 17-2872
(E.D. Pa. No. 5-16-cr-00178-001)
Before: Thomas L. AMBRO, Circuit Judge.
1. Motion by Appellant to File Supplemental
Appendix in support of Petition for Rehearing.
The foregoing Motion by Appellant to file Supple­
mental Appendix is granted.
By the Court
Is/ Thomas L. Ambro
Circuit Judge
Dated: May 10, 2019

App.lOa
MEMORANDUM OPINION OF THE
DISTRICT COURT OF PENNSYLVANIA
(MAY 12, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
JAMES KERR SCHLOSSER
Criminal No. 16-0178
Before: Jeffrey L. SCHMEHL, Judge.
SCHMEHL, J.
Before this Court is Defendant James Kerr
Schlosser’s (“Schlosser”) post-trial Motion to Arrest
Judgment pursuant to Fed. R. Crim. P. 34, Motion for
a New Trial pursuant to Fed. R. Crim. P. 33, and Motion
for Judgment of Acquittal pursuant to Fed. R. Crim.
P. 29. The government filed opposition to the motions.
Having read the parties’ briefing, the Court will deny
Schlosser’s motions (Docket No. 61) (Docket No. 62)
(Docket No. 64). Additionally, the Court orders
Schlosser to cease and desist from filing any further
pro se motions, as he is represented by counsel.
I.

Statement of Facts

On March 6, 2017, Defendant James Kerr
Schlosser was found guilty of interfering with the

App.lla
administration of the internal revenue laws in violation
of 26 U.S.C. § 7212(a) and willful failure to file a tax
return for the year 2012 and 2013 in violation of 26
U.S.C. § 7203.
On March 20, 2017 Schlosser filed a pro se post­
trial Rule 34 motion to arrest judgment for lack of
subject-matter jurisdiction. On April 3, 2017, and
before this Court’s ruling on Schlosser’s Rule 34
motion, Schlosser’s counsel filed a Rule 29 motion for
judgment of acquittal and a Rule 33 motion for a new
trial. Following the government’s response to Schlosser’s
counseled post-trial motions, Schlosser filed a pro se
reply to the government’s response on April 19, 2017.1
This Court will now address all three motions sepa­
rately.
II. Discussion
Defendant Schlosser moves to arrest the judgment
of his criminal jury trial that concluded on March 6,
2017, which found him guilty on all three counts of the
indictment: l) interfering with the administration of
the internal revenue laws in violation of 26 U.S.C.
§ 7212(a); 2) willful failure to file a tax return for the
tax year 2012 in violation of 26 U.S.C. § 7203; and 3)
willful failure to file a tax return for the tax year 2013
in violation of 26 U.S.C. § 7203.

1 Defendant Schlosser continues to submit a number of written
pro se submissions although he is, and has been, represented by
Lowell H. Becraft, Jr. This Court orders Mr. Schlosser to cease and
desist from filing any further pro se motions, as he is represented by
counsel.

App.l2a

Additionally, Schlosser moves this Court to grant
a new trial and render a judgment of acquittal regar­
ding Count I, violation of 26 U.S.C. § 7212(a). For the
reasons stated below, this Court will deny Schlosser’s
pro se motion to arrest judgment (Docket No. 61)
(Docket No. 64), as well as his counseled motion for
new trial and judgment of acquittal on Count I
(Docket No. 62).
A. Motion to Arrest Judgment
Rule 34 of the Federal Rules of Criminal Procedure
states that the court must arrest judgment if it does
not have jurisdiction over the charged offense. Fed. R.
Crim 34. However, this Court need not determine the
validity of Schlosser’s present motion to arrest
judgment because his motion was filed pro se although
he is currently represented by counsel. It is a long
standing rule that motions filed by pro se litigants
need not be considered in light of representation.
“Issues that counseled parties attempt to raise pro se
need not be considered except on direct appeal in
which counsel has filed an Anders brief.” U.S. v. Essig; 10
F.3d 968, 973 (3d Cir. 1993). Therefore, because the
constitution does not confer the right to proceed
simultaneously by counsel and pro se, Schlosser’s
motion to arrest judgment is denied.
B. Motion for New Trial
Schlosser moves for a new trial arguing his
constitutional rights to present a defense were violated.
Because Schlosser’s motion (Docket No. 62) was filed
by his counsel, the Court will address its validity below.
A Motion for New Trial is governed by Rule 33 of
the Federal Rules of Criminal Procedure, which states:

App.l3a
(a) Defendant’s Motion. Upon the defendant’s
motion, the court may vacate any judgment
and grant a new trial if the interest of justice
so requires. If the case was tried without a
jury, the court may take additional testimony
and enter a new judgment.
Fed. R. Crim. 33 (emphasis added). A district
court “can order a new trial on the ground that the
jury’s verdict is contrary to the weight of the evidence
only if it believes that there is a serious danger that a
miscarriage of justice has occurred—that is, that an
innocent person has been convicted.” United States v.
Johnson, 302 F.3d 139, 150 (3d Cir. 2002).
Under Federal Rule of Evidence 611, the court
has full discretion to control the “mode and order” of
examining witnesses and presenting evidence: l) to
avoid wasting time; 2) to make procedures effective for
determining the truth; and 3) to protect the witnesses
from harassment and undue embarrassment. FRE Rule
611; see also United States v. Johnson, 496 F.2d 1131,
1135-36 (5th Cir. 1974) (finding trial court did not
abuse its discretion because the evidence being
introduced was cumulative and did not shed light on new
facts not previously disclosed).
Furthermore, violating a defendant’s right to
introduce evidence could also violate the compulsory
process clause which allows criminal defendants to
secure favorable witnesses. U.S. Const. Amend. VI;
see also Government of Virgin Islands v. Mills, 956
F.2d 443, 445 (3d Cir. 1992) (finding the compulsory
process clause of the Sixth Amendment not absolute
and requires a showing that the testimony would have
been both material and favorable to the defense).

App.l4a
Here, Schlosser argues his constitutional rights
were violated when he was denied the opportunity to
defend himself and explain to the jury how and why
he decided to “renounce” his United States citizenship,
declare himself a “Sovereign Human Being,” and
ultimately skirt the federal tax laws. (ECF No. 62, at
7.) Schlosser’s argument centers on the 1994 seminar,
which was comprehensively analyzed at trial, and the
fact that he was “denied the opportunity to tell the
jury what others told him and was further prevented
from showing the jury some of the relevant documents
[relied upon].” (Idat 1-6.) Schlosser claims he
intended to testify as to what the other presenters told
him at the various meetings he attended and was
further prepared to produce documents detailing the
information provided at these meetings. {Id. at 7.)
Schlosser contends that this evidence would have
persuaded the jury, beyond a reasonable doubt, that
he did not willfully defraud the Government.
Schlosser cites a number of cases from several
circuits relating to a defendant’s right to offer the
testimony of witnesses and compel their attendance if
necessary, i.e. compulsory process. {Id. at 8-13.)
However, the compulsory process clause of the Sixth
Amendment is not applicable in the instant case
because Schlosser was not prevented from presenting
a defense or calling witnesses, and he was clearly not
prevented from admitting testimonial evidence regar­
ding the 1994 seminar. The jury clearly understood the
facts surrounding the seminar and what he was told
there. The Court did not allow Schlosser to read to the
jury voluminous information from the seminar, as it
would have been duplicative and a poor use of judicial
resources. In fact, Schlosser was only precluded from

App.l5a
providing duplicative testimony in the form of the
materials distributed at the 1994 seminar which were
provided to the Court in Schlosser’s motion for new trial.
The Eleventh Circuit in Hurn, cited by Schlosser,
found that a court’s exclusion of defendant’s evidence
could violate the Compulsory Process and Due Process
guarantees in four different circumstances.2 U.S. v.
Hurn, F.3d 1359, 1362-65 (llth Cir. 2004). One such
circumstance occurs when a defendant is precluded
from introducing evidence that is not directly relevant
to an element of the offense, “but makes the existence
or non-existence of some collateral matter somewhat
more or less likely, where that collateral matter bears
a sufficiently close relationship to an element of the
offense.” Id. atl364 (emphasis added).
The court in Hurn relied on United States v.
Lankford, a tax fraud case, where the district court
prevented the introduction of defendant’s expert
2 The four circumstances in Hurn are: 1) a defendant must
generally be permitted to introduce evidence directly pertaining
to any of the actual elements of the charged offense or an affirmative
defense; 2) a defendant must generally be permitted to introduce
evidence pertaining to collateral matters that, through a
reasonable chain of inferences, could make the existence of one
or more of the elements of the charged offense or an affirmative
defense more or less certain; 3) a defendant generally has the
right to introduce evidence that is not itself tied to any of the elements
of a crime or affirmative defense, but that could have substantial
impact on the credibility of an important government witness; and
4) a defendant must generally be permitted to introduce evidence
that, while not directly or indirectly relevant to any of the
elements of the charged events, nevertheless tends to place the
story presented by the prosecution in a significantly different
light, such that a reasonable jury might receive it differently.
US. v. Hurn, F.3d 1359, 1362-63 (llth Cir. 2004).

App.l6a
testimony as to defendant’s reasonable belief—which
was not directly relevant to the offense, but the
collateral matter bore a sufficiently close relationship
to an element.3 United States v. Lankford, 955 F.2d
1545 (llth Cir. 1992). Because the defendant in
Lankford believed he was acting reasonable, and
because the trial court allowed the government to offer
expert testimony, the Eleventh Circuit found the trial
court abused its discretion by “exclude [ing] otherwise
admissible opinion of a party’s expert on a critical
issue, while allowing the opinion of his adversary’s
expert on the same issue.” Id. at 1552.
Assuming arguendo that the 1994 seminar is a
collateral matter which could explain or justify
Schlosser’s misguided belief that he was not subject to
the tax laws of the United States, Schlosser was still
not prevented from presenting this defense. Schlosser
provided evidence at trial regarding the seminar and
its content to rebut the Government’s case against
him. The jury heard full well about renouncing
^ In Lankford, the defendant was charged with filing false
income tax returns after not reporting a $1,500 check he
received—which he asserted was a gift rather than taxable
income. U.S. v. Lankford, 955 F.2d 1545 (llth Cir. 1992). The
court concluded the expert’s testimony was indirectly relevant
because the testimony intended to explain the defendant’s state
of mind and whether he willfully violated the tax laws. Id. at
1551. The lower court determined that the tax expert offered by the
defense would not be allowed to testify as to the reasonableness
of the defendant’s belief that the money was a gift and not taxable
income which must be reported. Lankford, 955 F.2d at 1550.
However, the Eleventh Circuit stated, the “[defendant’s] expert’s
testimony revealed that a legitimate and well-founded legal
analysis would have supported the reasonableness of that belief.”
Id.

App.l7a

citizenship. Schlosser retold the story relating to the
seminar at trial; thus, the introduction of reading
materials and duplicative evidence clearly would not
have produced a different result. Allowing Schlosser to
introduce many documents from the 1994 seminar
would impede the function and efficiency of this Court
and be duplicative testimony.
Accordingly, this Court finds that Schlosser’s
constitutional rights were not violated and his motion
for new trial is denied.
C. Judgment of Acquittal Regarding Count I
Rule 29 of the Federal Rules of Criminal procedure
requires the court enter a judgment of acquittal of any
offense “for which the evidence is insufficient to
sustain a conviction.” Fed. R. Crim. P. 29(a). The
Third Circuit has stated, in reviewing the evidence in
the light most favorable to the prosecution, a judgment
of acquittal should be granted if any rational trier of
fact could have found the essential elements of the
crime beyond a reasonable doubt. United States v.
Caraballo-Rodriguez, 726 F.3d 418, 424-25 (3d Cir.
2013). In addition, the jury’s findings must be afforded
deference and all reasonable inferences must be drawn
in favor of the verdict. United States v. Riley, 621 F.3d
312, 329 (3d Cir. 2010).
Schlosser argues that this Court should grant his
motion for acquittal and enter a verdict of not guilty
on Count I, interference with the administration of the
internal revenue laws in violation of 26 U.S.C.
§ 7212(a). To prove a violation of 26 U.S.C. § 7212(a)
(“Omnibus Clause”), the government must prove
beyond a reasonable doubt that the defendant
“corruptly endeavored to obstruct or impede the due

App.l8a

administration of the Internal Revenue Code.” United
States v. Marek, 548 F.3d 147, 150 (1st Cir. 2008).
Succinctly, a violation of the statute occurs when a
defendant intends to impede the administration of tax
laws.
Schlosser contends that the two expert witnesses
produced by the government were insufficient for the
jury to find him guilty of interfering with the adminis­
tration of tax laws beyond a reasonable doubt. Schlosser
complains that the IRS agents’ testimony that
Schlosser made their jobs “harder to perform” did not
amount to “obstructing or impeding the due adminis­
tration of the tax laws.” (ECF No. 62, at 15.) Taken
together, along with all of the other evidence in the
case, including the creation of the Corporate Soles and
Business Trusts, and the gold-for-cash testimony of
Leroy Glick and John Nolt, reasonable jurors could
have, and did, infer that Schlosser interfered and
obstructed with the administration of the tax laws of
the United States. Thus, viewed in the light most
favorable to the government and drawing all reason­
able inferences in favor of the jury’s verdict, the Court
finds Schlosser’s conviction on Count I is supported by
sufficient evidence to find Schlosser was guilty of the
offense.
III. Conclusion
Therefore, this Court will deny Schlosser’s motion
to arrest judgment (Docket No. 61), motion for a new
trial (Docket No. 62), and motion for judgment of
acquittal (Docket No. 62). Furthermore, the Court
orders the Defendant to cease and desist from filing
any further pro se motions, as he is represented by
counsel.

App.l9a
ORDER OF THE
DISTRICT COURT OF PENNSYLVANIA
(MAY 15, 2017)
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
JAMES KERR SCHLOSSER
Criminal No. 16-0178
Before: Jeffrey L. SCHMEHL, Judge.
And Now, this 12th day of May, 2017, upon
consideration of Defendant James Kerr Schlosser’s
pro se Motion to Arrest Judgment (Docket No. 61),
Motion for New Trial and Judgment of Acquittal filed
by counsel of record (Docket No. 62), and a second pro
se Motion to Arrest Judgment, Set Aside the Jury
Verdict, and Vacate the Conviction (Docket No. 64),
and all supporting and opposing papers, and for the
reasons stated in the accompanying memorandum
opinion, it is hereby ORDERED as follows:
The motion of Defendant James Kerr Schlosser
(Docket No. 61) is DENIED:
The motion of Defendant James Kerr Schlosser
(Docket No. 62) is DENIED:

App.20a
The motion of Defendant James Kerr Schlosser
(Docket No. 64) is DENIED.
BY THE COURT:
/s/ Jeffrey L. Schmehl
Judge

App.21a
ORAL DECISION OF THE DISTRICT COURT
(NOVEMBER 7, 2017)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA,
Plaintiff,
v.
JAMES KERR SCHLOSSER,
Defendant.
Case No. 16-cr-178
Before: The Hon. Jeffrey L. SCHMEHL,
United States District Court Judge.
[Transcript p. 147-148]
THE COURT: Okay. Now we have a time reference.
Q.

Exhibit Number 1. Open it up. There’s a file
folders—file folders on the bench in front of you.

A.

Yes.

Q. And what I would ask of you is if you could
recognize, tell us whether or not you recognize, all of
the pieces of paper in proposed Defense Exhibit
Number 1.
A.

Yes.

App.22a

Q.

Where did you get these documents?

A.

At the State Citizenship Seminar.

Q.

Did you—

A.

They give you a big thick book.

Q.

All right. Is this a sampling of some of the materials
you acquired at this State Citizenship meeting?

MR. MILLER: Objection, Your Honor. There has been
no proper foundation for this proposed exhibit.
MR. BECRAFT: That’s what I’m laving. Your Honor.
THE COURT: All right. Overruled.
Q.

When you attended the meeting in Westchester
at some hotel, early 1994, was there a presentation
given that discussed and utilized these materials?

A.

Yes. And they highlighted these sections as part
of what we learned.

Q.

Were there more pieces of paper that you obtained
at that meeting?

A.

Yeah.

Q.

This. Is this a representative sampling of some of
the pieces of paper, some of the documentation,
that you acquired at that first meeting regarding
state citizenship?

A.

Yes. I think so.

Q.

Is this something you read and relied upon—

A.

Absolutely.

Q.

—in the formation of your beliefs?

A.

Yes.

App.23a

MR. BECRAFT: Your Honor, move for the admission
of proposed Defense Exhibit Number 1,
MR. BECRAFT: Objection. Two grounds, lack of foun­
dation and hearsay.
THE COURT: I’m going to deny that on the grounds
of hearsay.
Q.

Now, can you summarize for the benefit of the
jury the substance of the message that you received
at this first meeting that related to state citizen­
ship?

A.

Yeah. I was starting to do that before. And do I
have to do it just from these documents, or are
you allowed to—

Q.

No. that’s not admitted, so it’s—

THE COURT: You should probably do it not from the
documents.
THE WITNESS: Oh. these are not admitted.
[...]
Heated Sidebar Discussion
THE COURT: What’s your understanding of a corporate
sole or corporate—
MR. BECRAFT: Well, I was leading into it, but I got
an objection from the government, because I
fulfilled my obligation as a lawyer, if you’re going to
be talking about something, bring it along. And I’m
more than happy to let him look at it all he wants.
MR. MILLER: That’s not mv concern now. Mv concern
is, first of all, he should be testifying from his
memory. He is flashing this book around, trying to

App.24a
create the impression that this person read volu­
minous documents and what have you, which
caused him to form a good-faith belief. That’s
improper.
MR. BECRAFT: No. it isn’t. Judge. And while we’re at
it. you know, last night I prepared, pulled up some
files, and I would like to make this argument at this
time in reference to. you know, some of the
exhibits I’ve offered and what will be coming up
next.
I think that the defendant has a right to present a
complete defense. It’s his constitutional right, pre­
dicated upon the 6th Amendment. Now, there’s a
number of courts that talk about the type of evi­
dence that you can offer when you’re exercising
your right to present a defense. Last night. I ran
off a—I’ve got it with me. if the Court would like
to have it. I’ve got a quote from a—it’s an 11th
Circuit case. Judge, but it supports mv position
about the type of evidence you can proffer when
you’re pursuing your right to a complete defense.
The case is called the United States vs. Hurn. and
it’s the most developed—you know. I’ve tried to
locate all the authority in all the circuits. Judge.
that represent a legal conclusion from the courts
about what type of evidence you can present when
you pursue vour defense. And to me this Hurn
case really hits the nail on the head. And this type
of material—I’m not offering this, but these other
exhibits fall within the classification of what
the—
THE COURT: Not the evidence there. It’s not Exhibit
2. It’s trumped up pieces of old cases—

App.25a

MR. BECRAFT: Oh. that’s what he had, and I’m dealing
with it. That’s what he got from going to these
meetings.
MR. MILLER: Your Honor, mv concerns are threefold
when it—particularly documentary evidence. First
of all, we talk about—
THE COURT: Well, he’s not admitting this. As far as
I know, he’s not even marking it.
MR. MILLER: It’s the flashing around of things to give
them questions. Because he can ask him—he can
ask him questions about his, you know, his views.
but to suggest somehow, without actually offering
it in. that one, he looked at this and so therefore
he formed this opinion, which gave him a goodfaith basis that he wouldn’t have to file.
MR. BECRAFT: His testimony is going to be what he
believed.
THE COURT: That’s right.
MR. BECRAFT: Now if I—
THE COURT: That’s not preventing a defense.
MR. BECRAFT: Well, he’s objecting to me using this.
If I hadn’t brought it to court, he would be objecting
to why I didn’t—
THE COURT: So the next thing you’re going to get
into is corporate soles, right?
MR. BECRAFT: That’s correct. And I would like—
THE COURT: Why don’t you just ask him about it and
see what he savs.
MR. BECRAFT: Okay. All right. But I mean, now, I
just—this is what he picked up at the meetings.

App.26a

MR. MILLER: But it’s theater. This is theater.
MR. BECRAFT: No, it’s not theater.
THE COURT: All right. We’re going to go another ten
minutes, we can take it up in recess. And maybe
you can focus vour client.
MR. BECRAFT: Okav.
(Conclusion of sidebar)
THE COURT: All right, members of the jury, we’re
going to resume questioning about a particular
topic at this time, and then shortly, we’ll take our
afternoon recess.
And, Mr. Becraft, ask your next question of your
[...]
[Transcript p. 181-187]
Q.

And is there a way that you can summarize what
it is that you learned as a result of attending this
seminar regarding corporate soles?

MR. MILLER: Your Honor, I’m sorry. Objection as to
form. He can talk about his—what his opinion—
THE COURT: Yeah, the objection’s sustained. It’s not
relevant, and it’s not proper for him to summarize
what people told him.
MR. BECRAFT: I’m not offering it for the truth of the
matter. Your Honor.
THE COURT: You can say, after hearing this, what
did you do, or what did you think? But he’s not
allowed to like repeat what people said.
MR. BECRAFT: Okay.

App.27a
Q.

In light of the Court’s admonition, what is it that
you ultimately reached in reference to a conclusion
or a belief about the use of these entities regarding
corporation soles?

A.

Okay. I believe that they are very, very valid ways
to hold church property in perpetuity. So it’s—a
corporation just kind of gives you protection, but it
also enables you perpetuity. So, if one, for
instance, Catholic priest dies, another can take
his office, and the office doesn’t change.
So in a Law Review article from right here in
Pennsylvania, in Carlisle, they had—in 1978 there
was a corporation sole Law Review article, and it
says that—

MR. MILLER: Objection, Your Honor, it’s a Law
Review article. It’s—
THE COURT: Yeah, that’s not what—that’s not what
I said.
THE WITNESS: Okay, well—
THE COURT: All right, we’re going to take our
afternoon recess at this time. We’re in recess, the
jury can be taken from the courtroom. Ten or 15
minute recess and then we’ll resume.
(Jury out)
THE COURT: All right. Just to be clear when we
return, my ruling is this. I’m sustaining the Gov­
ernment’s objections regarding written hearsay by
others. I allowed Exhibit 3 because it was a docu­
ment prepared by Mr. Schlosser himself.
Now, the questions should be in this form. Did you
attend a seminar in Austin Texas for three days?

App.28a
Yes. Okay. After you left that seminar, what did
you think, and you know, what did you do, based
upon what you heard at the seminar? Not what
you heard at the seminar, based upon what you
heard at the seminar.
MR. BECRAFT: Well, could I make a record on that.
Judge? And I’d like to—
THE COURT: Yeah.
MR. BECRAFT: I was mentioning at the sidebar, you
know, the right to present a—the constitutional
right to present a defense. I’d like to direct the
Court’s attention to the case of United States vs.
Hum. 368 F.3d 1359. it’s an 11th Circuit case—
THE COURT: All right. Do you have a copy of that
case?
MR. BECRAFT: Well. I have a—mv notes. What I’d
like to do is provide the Court with, vou know, the
part of that opinion that, you know. I believe, is
relevant. And it outlines the various things vou
can offer in the wav of proof regarding an element
of the case. And we’re contesting the elements of—
all of the elements of all three counts of the
indictment, but primarily, what is his intent?
Now. I would offer the statements that are made
at the course of both the state citizenship meeting.
as well as the statements that are made to him at
this other meeting regarding corporate soles—I’m
not offering it for the truth of the matter. I’m
offering it for a demonstration of what was his
intent? And, vou know. Hum says, and I think
Hum’s one of probably the best cases, it tells vou
the type of evidence vou can offer regarding your

App.29a
right to present a complete defense. And you
certainly can offer evidence regarding an element.
And one of the elements that I told the jury from the
very beginning, you know, of the contested ele­
ments. what’s the intent? And so I would, you
know, the Court looks at the statements that are
made at these meetings as being hearsay, which
a typical lawyer’s going to—you know, all lawyers
sav that. But, you know, if you study the cases on
what can be shown in reference to intent. I men­
tioned in mv trial brief that the Wellendorfcase.
a 9th Circuit case, the Palo (phonetic) case and
the Schomber (phonetic) case, and they indicate
that you can offer, for state of mind purposes, you
know, the—what we would consider hearsay state­
ments if they relate to state of mind.
THE COURT: But. I’m not sure they’re relate to state
of mind.
MR. BECRAFT: I’m sorry—
THE COURT: Otherwise, in every case, a defendant
would have to testify about everything he heard
and read in his whole life.
MR. BECRAFT: You know, Judge, if you did that, the
jury would kill the defendant. You know, so
there’s a limit to a practical limit—but then it also
has to be relevant.
THE COURT: All right. I went to Austin, I heard from
Mr. Thayer, I heard from Ms. Miller. You know,
they spoke for three days, and after I left, I felt I
could do this.

App.30a
MR. BECRAFT: I also think that—well, if I could.
Your Honor, here’s a—I hate to reuse—it’s the
11th Circuit case is the cause—
THE COURT: So you have the Hurn case?
MR. BECRAFT: And—well. I’ve got—on this point
right here, this relates to 11th Circuit again—
MR. MILLER: May I have a copy, please?
MR. BECRAFT: Yeah. I’m getting ready to give it to
you. I ran it off last night. United States vs. Juan.
MR. MILLER: It would have been nice to have a copy
of the entire opinion.
MR. BECRAFT: Well, I—the issue came up during the
course of this trial.
THE COURT: Well, he can look it up, and I can look it
up too. I can never make a ruling without seeing
the-MR. BECRAFT: Yeah.
THE COURT:—opinion and the facts of the case.
Courts can’t make rulings on blurbs.
MR. BECRAFT: I know. The only thing I had. Your
Honor, was mv notes. And I keep notes on evidence
questions, and, you know, this Juan case seems to
me. you know, what I gather from at least the quote
right here, is that, you know, you can offer—you
know, having somebody state the ultimate conclu­
sion is one thing. But, you know, being able to
per-show the foundation of vour belief is quite
another. And being able to show the foundation.
you know, adds greater credibility to vour belief.
Like, for example, you know. I learned to offer the.
you know. Exhibit Number 2. state citizenship
cases. You know. I think he can—if he relied upon

App.31a

cases, he can sav what he learned from them. But
then I also maintain it’s admissible, because, you
know, as Juan says, you know, just simply stating a
bebef without having the ability to prove the foun­
dation or the source of the belief, you know, the
source of the belief is equally admissible.
And that’s what I get out of Juan* and that’s what
I get out of Hum. Both 11th Circuit, mv circuit.
That’s whv—
MR. MILLER: Well, certainly. Your Honor, a defendant
is entitled to present a defense. But at the same
time, the government has the right to crossexamine the source of the information. To simply
get it documented and admitted in evidence.
written by someone else, we have no opportunity
to cross examine, it’s not proper. He—it would
have been helpful if we’d had the entire opinion.
We’re clearly not trying to deny him. He’s got a
right to present a defense, but he can sav. as the
Court pointed out, I looked at—I attended the
seminar, and as a result of attending the seminar.
I reached a conclusion, blank blank blank for the
following reason, without quoting exactly what
they said.
THE COURT: We’ll take our break.
MR. BECRAFT: We made our record.
THE COURT: We’ll take our break, and I’ll note that.
and I’ll note what you said, but that doesn’t mean
everything. That doesn’t mean fragments of all the
cases come in. Depending upon what it is, it may
come in to support someone’s belief.
MR. BECRAFT: Okay.

App.32a

THE COURT: But I don’t think I’ve seen anything vet
that would meet the standard of Juan. I’m trying
to look at the Juan facts right now. Okay. But I’ll
do that during the break. All right? Court’s in
recess.
(Recess)
(Jury in)
COURTROOM DEPUTY: All rise. Court is again in
session. Thank you, you may be seated.
THE COURT: All right. Let the record reflect, counsel
is present, the defendant is back on the witness
stand in the middle of his direct testimony, the jury
is in the box. Counselor, you may proceed.
MR. BECRAFT: May it please the Court, could the
defendant be shown—the Government—I would
like to see Exhibit 1-5E.
THE COURT: 1-5E.
MR. BECRAFT: 1-5E.
THE COURT: It’s up.
Direct Examination, Continued
[...]
[Transcript p 192-194]
A.

Okay. Well, that’s—one page of that’s in here.

Q.

Okay. How about 16? Was that part of the course
material?

A.

Yes.

Q.

17. Was that part of the course material?

A.

Yes.

App.33a

Q.

19. Was that a part of the course material?

A.

Yes.

Q.

Did you know anything about the matters that
are covered in those exhibits we just listed off prior
to going to this meeting?

A.

I knew a little bit about 19 from state citizenship.
I didn’t know much about 17, which is a compa­
rison of the corporation sole—

MR. MILLER: Objection as to—
Q.

Yeah, let me get them admitted, okay? Just listen to
my question.

A.

Okay.

Q.

Let me withdraw any pending questions. Did—for
those exhibits right there, that was the subject of
discussion and study at the meeting. Correct?

A.

Yes.

Q.

Did you learn something from each of these
numbered exhibits, let me repeat them. 13.16,17.
19. and 20. as a result of attending the meeting in—

A.

Yes, absolutely.

Q.

Do these have some bearing upon why you filed—
created these two corporation soles, which are
admitted in Government Exhibit 1-5E—

A.

Yes.

Q.

and 1-5B?

A.

Yes.

Q.

Okay.

App.34a

MR. BECRAFT: Your Honor. I move for the admission
of 13, 16. 17. 19. and 20,
MR. MILLER: Your Honor. I object to the admissibility
of 13. 16. 17. 19. and 20 as being hearsay, and
they are proposed exhibits and not actual exhibits.
They’re all hearsay.
THE COURT: 13. 16—
MR. MILLER: 17. 19. and 20.
THE COURT: All right. I will sustain your motion to
everything but 13. 13 is an outline of the threedav seminar, and I will allow that to give some
perspective. All right?
[...]

App.35a

ORDER OF THE THIRD CIRCUIT DENYING
SURPETITION FOR REHEARING
(MAY 21, 2019)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
UNITED STATES OF AMERICA,
v.
JAMES KERR SCHLOSSER,
Appellant.
No. 17-2872
Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Criminal Action No. 5-16-cr-00178-001)
District Judge: Honorable Jeffrey L. Schmehl
Submitted Under Third Circuit
L.A.R. 34.1(a) January 8, 2019
Before: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, Jr., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, and
FUENTES*, Circuit Judges.

* Senior Judge Fuentes is limited to panel rehearing only.

App.36a
The petition for rehearing filed by Appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
By the Court,
/s/ Thomas L. Ambro
Circuit Judge
Dated: May 21, 2019
Lmr/cc:
Bernadette A. McKeon
Robert A. Zauzmer
James Kerr Schlosser

App.37a
AFFIDAVIT IN SUPPORT OF APPELLANT’S
MISSING EVIDENCE
Exhibits 21 and 22 are parts of exhibits that were
withheld from the court and jury by Larry Becraft,
defendant’s own trial lawyer.
Becraft was at the defendant’s home the morning
of Day 2, February 28, 2017 the first day of testimony
and our 4 Exhibit Books were due. It was about 7:15
AM and Becraft got a call, and took it privately in a
bedroom. To appellant’s shock, he stormed out of the
bedroom, white as a ghost, bee-lined to the exhibit
books, and started removing Exhibits 21, 22, and two
others that appellant believed had other questionable
actions, possibly Brady or Bivins complaint material
in them. Becraft’s hands were shaking like crazy, (he
had never done that), and appellant objected, Me“Larry, what are you doing”? B-“Oh the judge will
never accept these exhibits”. Me-“That’s OK, let him
deny them, Larry why are your hands shaking like
that” .. . B “Oh they do that sometimes” Me-“No leave
them in there, if he denies them we can bring it up on
appeal” B-“No, I’ll cover it in cross-examination”.
Becraft persisted in removing them, and never put
IRS Cl Agent Michael Castellano on the stand and
gave IRS agent Diane Ramos a pass in his weak
performance of a cross. (App 423-433). That’s when I
realized I was getting railroaded. Thankfully, the full
Exhibits 21 and 22 were entered in the Supplemental
Appendix for re-hearing that the Appellant’s Appeals
lawyer refuse to do. In the sight of God I certify that
this is true to my recollection.
/s/ James Kerr Schlosser

App.38a
LEGAL COMMENTARY:
An unrebutted Affidavit of Defense is prima facie
evidence. An affidavit not rebutted or contradicted is
prima facie evidence and will remain sufficient in the
judgment of the law to establish a given fact or group
or chain of facts, State vs. Burlingame, 146 Mo. 207,
48 S.W. 72, 6 Pet. 632. 1 Starkie. Ev. 544. Indeed, no
more than [affidavit] is necessary to make the prima
facie case. United States vs. Kis, 658 F.2d 526 (7th Cir.
1981); certiorari denied 50 U.S.L.W. 2169; S.Ct.
March 22, 1982. In Pennsylvania ex rel. Hendrickson
vs. Meyers, 393 Pa. 224, 228,144 A.2d 367, 370 (1958),
the Pennsylvania Supreme Court held:
The Supreme Court, adopting the definition
in Black’s Law Dictionary, defined “evidence”
as any species of proof legally presented at
the trial of an issue, by the act of the parties
and through the medium of witnesses,
records, documents, concrete objects, etc.
JURAT/ACKNOWLEDGEMENT

Lancaster County
CERTIFIED AND SUBSCRIBED TO before me
this 11th day of October 2019, before me, Marilyn
Lopez, Notary Public, James Kerr Schlosser person­
ally stood before me, or is known to me, and subscribed
his name on this instrument, and acknowledged that
he executed this document in good faith and with
clean hands.
/s/ Marilyn Lopez______________
Notary Public
My commission expires on: 12/23/19

App.39a
SCHLOSSER’S EXHIBIT LIST
United States of America

v.
James Kerr Schlosser
Case No. 16-cr-178-JLS
Ex.: Description

Offered

1

State
citizenship
course materials

2

State citizenship cases

3

Schlosser affidavit,
May 1994

4

SSA documents
(Ron Paul, etc)

5

SSA document
(printed July 5, 2003)

6

Jan.
2008
objections

7

FOIA requests to SSA

8

Lawyer SSN appeal
to Penn DOT

9

ITIN immigration
support

10

Religious objections
re SSN to

11

SSN

Mennonite Financial
FOIA Requests to IRS

Admitted

App.40a

12

Corporation
seminar outline

13

Corporation Sole Def.
of Church

14

Dickenson Law Review
Article

15

Non-interest
accounts

16

Corporation Sole defini­
tion

17

Corporation Sole facts

18

Nevada
Sole laws

19

Corporation Sole resources

20

Corporation Sole
almsgiving

21

Tax lien for 1994

22

Ramos notes & MOI

23

BMM SS4 request

24

Grand Jury letter (2009)

Sole

bearing

Corporation

App.41a

CRIMINAL JUDGMENT
(AUGUST 14, 2017)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA

UNITED STATES OF AMERICA
v.
JAMES KERR SCHLOSSER
Case Number: 0313 5:16CR00178-001
USM Number: 75261-066
The Defendant was found guilty on count(s) 1, 2
and 3 after a plea of not guilty.
The defendant is adjudicated guilty of these
offenses:
Title &
Section

Nature of Offense

26 U.S.C.
§ 7212(a)

Attempts
fere with
tration
internal
Jaws

26 U.S.C.
§ 7203

Willful failure to
file tax returns

Offense
Ended

to inter­ 12/31/14
adminis­
of
the
Revenue
12/31/14

Count
1

2,3

App.42a

The defendant is sentenced as provided in pages 2
through 6 of this Judgment. This sentence is imposed
pursuant to the sentencing Reform Act of 1984.

8/11/2017
Date of Imposition of Judgment
/s/ Jeffrey L. Schmehl
United States District Judge
Date: August 11, 2017

App.43a

IMPRISONMENT
The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned for
a total term of:
36 MONTHS on Count 1 and consecutive terms of
5 MONTHS on each of Counts 2 and 3. to produce a
total custodial sentence of 46 MONTHS.
The defendant is remanded to the custody of the
United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be on supervised release for a term of:
1 YEAR on each of COUNTS 1 THROUGH 3. all
such terms to run concurrently.
The defendant must report to the probation office
in the district to which the defendant is released
within 72 hours of release from the custody of the
Bureau of Prisons.
The defendant shall not commit another federal,
state or local crime.
The defendant shall not unlawfully possess a con­
trolled substance. The defendant shall refrain from
any unlawful use of a controlled substance. The
defendant shall submit to one drug test within 15
days of release from imprisonment and at least two
periodic drug tests thereafter, as determined by the
court.
The defendant shall not possess a firearm, ammu­
nition. destructive device, or any other dangerous weapon.

App.44a

The defendant shall cooperate in the collection of
DNA as directed bv the probation officer.
STANDARD CONDITIONS OF SUPERVISION
1. the defendant shall not leave the judicial dis­
trict without the permission of the court or probation
officer;
2. the defendant shall report to the probation
officer in a manner and frequency directed by the court
or probation officer;
3. the defendant shall answer truthfully all
inquiries by the probation officer and follow the in­
structions of the probation officer;
4. the defendant shall support his or her depend­
ents and meet other family responsibilities;
5. the defendant shall work regularly at a lawful
occupation, unless excused by the probation officer for
schooling, training, or other acceptable reasons;
6. the defendant shall notify the probation officer
at least ten days prior to any change in residence or
employment;
7. the defendant shall refrain from excessive use
of alcohol and shall not purchase, possess, use, distrib­
ute, or administer any controlled substance or any
paraphernalia related to any controlled substances,
except as prescribed by a physician;
8. the defendant shall not frequent places where
controlled substances are illegally sold, used, distrib­
uted, or administered;
9. the defendant shall not associate with any
persons engaged in criminal activity and shall not

App.45a

associate with any person convicted of a felony, unless
granted permission to do so by the probation officer;
10. the defendant shall permit a probation officer
to visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband
observed in plain view of the probation officer;
11. the defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer;
12. the defendant shall not enter into any agree­
ment to act as an informer or a special agent of a law
enforcement agency without the permission of the
court; and
13. as directed by the probation officer, the
defendant shall notify third parties of risks that may
be occasioned by the defendant's criminal record or
personal history or characteristics and shall permit
the probation officer to make such notifications and to
confirm the defendant's compliance with such
notification requirement.
SPECIAL CONDITIONS OF SUPERVISION
The court has reviewed these conditions of super­
vision and finds that they are reasonably related to
statutory goals, consistent with United States
Sentencing Commission policy and that the liberty
deprivations are no greater than is reasonably neces­
sary.
The defendant is to fully cooperate with the
Internal Revenue Service by filing all delinquent or
amended returns and bv timely filing all future returns
that come due during the period of supervision. The

App.46a
defendant is to properly report all correct taxable
income and claim only allowable expenses on those
returns. The defendant is to provide all appropriate
documentation in support of said returns. Upon request.
the defendant is to furnish the Internal Revenue Service
with information pertaining to all assets and liabilities.
and the defendant is to fully cooperate by paving all
taxes, interest and penalties due, specifically in the
amount of $405.650. and otherwise comply with the
tax laws of the United States.
The defendant shall provide the U.S. Probation
Office with full disclosure of financial records and
include yearly income tax returns upon the request of
the U.S. Probation Office. The defendant shall cooperate
with the probation officer in the investigation of
financial dealings and shall provide truthful monthly
income statements.
The defendant is prohibited from incurring any
new credit charges or opening additional lines of credit
without the approval of the probation officer, unless
the defendant is in compliance with a payment schedule
for any fine or restitution obligation. The defendant
shall not encumber or liquidate interest in any assets
unless it is in the direct service of the fine or resti­
tution obligation or otherwise has the express approval
of the Court.

App.47a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal
monetary penalties under the schedule of payments
on Sheet 6.
Totals

Assessment Fine

Restitution

$150.00

$405.650

$

Name of Payee
Internal Revenue Service
IRS-RA CS
Attn: Mail Stop 6261;
Restitution
333 West Pershing Ave.
Kansas City, MO 64108
Restitution Ordered
$405,650
SCHEDULE OF PAYMENTS
A. Lump sum payment of $405,8000 due immedi­
ately, balance due
in accordance below; or
F. Special instructions regarding the payment of
criminal monetary penalties:
It is recommended that the defendant parti­
cipate in the Bureau of Prisons Inmate
Financial Responsibility Program and provide
a minimum payment of $25 per quarter
towards the fine and special assessment. In
the event the entire amount is not paid prior
to the commencement of supervision, the
defendant shall satisfy the amount due in

App.48a
monthly installments of not less than $250. to
commence 30 days after release from
confinement. The defendant shall notify the
United States Attorney for this district
within 30 days of any change of mailing
address or residence that occurs while any
motion of the fine remains unpaid.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period
of imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.

App.49a
INDICTMENT
(APRIL 6, 2016)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
JAMES KERR SCHLOSSER
Violations:
26 U.S.C. § 7212(a) (attempts to interfere with
administration of the internal revenue laws—1 count)
26 U.S.C. § 7203 (willful failure to file
tax returns—2 counts).
The Grand Jury Charges That:
At all times relevant to this indictment unless
other indicated:

Background
1. The Internal Revenue Service was an agency
of the United States Department of Treasury charged
with enforcing the tax laws of the United States.
2. The Internal Revenue Code required every
individual, certain types of corporations, trusts and, in
some cases estates who had received gross income sub­
ject to taxation in excess of the exemption amount

App.50a

established by Congress, to make and file a tax return
with the Internal Revenue Service.
3. The types of gross income which necessitated
the preparation and filing of a federal income tax
return included: (a) compensation for services, fees,
commissions, and fringe benefits; and (b) gross income
derived from a business enterprise.
4. The Office of the Nevada Secretary of State
was a Nevada pubhc agency where documents that had
created corporations, business trusts, partnerships,
and other artificial entities, were filed.
5. A business trust was an unincorporated organ­
ization created by a declaration of trust. As an artificial
entity, a business trust was used to circumvent certain
restrictions imposed upon corporate acquisitions
while, at the same time, providing the creators of the
business trust with similar limited liability protection
provided to the equity owners of a corporation.
6. A foreign business trust under Nevada law was
an artificial entity formed pursuant to the laws of a
foreign nation or jurisdiction and denominated as
such, pursuant to the laws of the foreign nation or
jurisdiction.
7. A corporation sole was an artificial entity
consisting of a single incorporated office and occupied
by a single natural person. A corporation sole could
pass, without an interval in time, from one officer
holder to the next successor-in-office giving the position
legal continuity with the subsequent officer holders
having identical powers and possessions to their pre­
decessors.

App.51a
8. Person “A” was an individual known to the
grand jury who served as trustee for
Surgical Resource Business Trust and Lightsource
Medical Business Trust.

The Defendant
9. Defendant JAMES KERR SCHLOSSER, a
manufacturers’ sales representative, sold medical
equipment and surgical devices to health care providers
and was compensated through commission payments
based on the gross sales that defendant SCHLOSSER
made for his clients.
10. From in or about 1987 until on or about
December 31,1992, defendant JAMES KERR SCHLOS­
SER filed federal income tax returns and paid taxes
that were due and owing on the income that he had
earned.
11. For tax years 1990 and 1992, defendant
JAMES KERR SCHLOSSER was entitled to receive
two tax refund checks. However, on or about June 6,
1994 and August 29, 1994, defendant SCHLOSSER’s
tax refund checks were sent to the New Jersey Office
of Child Support Enforcement.
12. On or about April 25, 1994, defendant JAMES
KERR SCHLOSSER filed a document with the Superior
Court of Gloucester New Jersey in which he renounced
his United States Citizenship, his social security, and
declared himself to be a “Sovereign Human Being.”
13. From at least 1995, defendant JAMES KERR
SCHLOSSER has continued to earn gross income but
has failed to file federal income tax returns with the
Internal Revenue Service.

App.52a

Entities Created By Defendant Schlosser
14. Defendant JAMES KERR SCHLOSSER cre­
ated an artificial entity which he named the Office of
the Overseer of the Berean Medical Mission and his
Successor, A Corporation Sole (EIN #91-2120368),
which he registered with the Nevada Secretary of State.
15. Defendant JAMES KERR SCHLOSSER cre­
ated an artificial entity which he named the Office of
the President of Surgical Resource Group and His
Successor, A Corporation Sole (EIN# 91-2010118),
which he registered with the Nevada Secretary of State.
16. Defendant JAMES KERR SCHLOSSER cre­
ated an artificial entity which he named the Surgical
Resource Business Trust (EIN#20-6157212), which he
registered with the Nevada Secretary of State.
17. Defendant JAMES KERR SCHLOSSER cre­
ated an artificial entity which he named the
Lightsource Medical Business Trust (EIN# 20-615217),
which he registered with the Nevada Secretary of State.
18. Defendant JAMES KERR SCHLOSSER cre­
ated an artificial entity which he named the Office of
Elder of the International Fellowship of Biblical
Stewards and His Successor, A Corporation Sole (no
EIN#), which he registered with the Nevada Secretary
of State.
Investment Companies and Credit Union
19. Investment Company #1 was a financial ser­
vices organization that provided investment advice
and services to individual, corporate and institutional
investors.

App.53a
20 Investment Company #2 was a financial ser­
vices organization that provided investment advice
and services to individual, corporate and institution
investors.
21. Credit Union #1 was a faith-based association
credit union that provided banking services to its
members.
Coin Dealers
22. Coin Dealer #1 sold gold coins to the Office of
the President Surgical Resource Group and His
Successor, A corporate Sole, for the benefit of defendant
JAMES KERR SCHLOSSER.
23. Coin Dealer #2 sold gold coins to individual
known to the grand jury as Person “A” for the benefit
of defendant JAMES KERR SCHLOSSER.
24. Coin Dealer #3 sold gold coins to defendant
JAMES KERR SCHLOSSER who told Coin Dealer #3
that he [SCHLOSSER] did not have to pay taxes
because he was a sovereign citizen.
25. Coin Dealer #4 sold and purchased gold coins
from defendant JAMES KERR SCHLOSSER.
Schlosser’s Concealment of Income
26. Defendant JAMES KERR SCHLOSSER direc­
ted health care providers, who had purchased medical
equipment and surgical supplies from him, to make
their checks payable to one or more of the corporation
soles and business trusts that he had created. The
checks, which were initially sent to several business
addresses in Nevada, were forwarded to defendant
SCHLOSSER or to an individual known to the grand
jury as Person “A” both of whom lived within the

App.54a

Eastern District of Pennsylvania. The checks were then
deposited into accounts in the names of the entities
that had been established at investment company #1
or investment company #2.
27. Defendant JAMES KERR SCHLOSSER
deposited some of the money that he received from his
health care provider clients into an account that he
had established at Credit Union #1 and wrote checks on
this account to pay, among other things, personal
expenses.
28. When he opened the investment account at
Investment Company #1, defendant JAMES KERR
SCHLOSSER indicated on the Account Agreement/W-9
Form that the account should be a non-interest bearing
account.
29. Defendant JAMES KERR SCHLOSSER’s
justification for not wanting to earn interest on the
account that he established in the name of the Office
of the Overseer of the Berean Medical Mission, and
His Successor, a Corporate sole account, was that
since Jesus would not take interest, he too did not
want to earn interest.
30. By placing his commission payments in a non­
interest bearing account, defendant JAMES KERR
SCHLOSSER caused Investment Company #1 not to
issue IRS Form 1099-INT to him, or the Internal
Revenue Service, thus preventing the Internal Revenue
Service from learning about the existence of the account
at a time when defendant JAMES KERR SCHLOSSER
was not filing federal income tax returns.
31. On or about April 26, 2004, defendant JAMES
KERR SCHLOSSER opened a second account in the

App.55a
name of Surgical Resource Business Trust at Invest­
ment Company #1 which listed an individual known
to the grand jury as Person “A” as trustee. Defendant
SCHLOSSER’s instructions on the new account direc­
ted all financial statements associated with the
Surgical Resource Business Trust Account be sent to
home address of Person “A.”
32. On or about September 20, 2004, defendant
JAMES KERR SCHLOSSER opened an account at
Investment Company #2 in the name of The Surgical
Resource Business Trust and made deposits into this
account. The checks written on the account, however,
were endorsed by an individual known to the grand
jury as Person “A.”
33. From on or about April 15, 1995 through on
or about December 31, 2014, at Bird-in-Hand, in the
Eastern District of Pennsylvania, and elsewhere
defendant

James Kerr Schlosser
corruptly endeavored to obstruct and impede the
due administration of the internal revenue laws in an
attempt to prevent the Internal Revenue Service from
identifying, assessing and collecting federal income
taxes based on income that defendant SCHLOSSER had
earned from the sale of surgical devices and medical
equipment through the following acts:
a.

on or about April 25,1994, defendant JAMES
KERR SCHLOSSER filed a document in the
Superior Court of Gloucester County New
Jersey in which he renounced his United
States Citizenship, his social security number

App.56a
and declared himself to be a “Sovereign
Human Being;”
b.

on or about September 21, 1999, defendant
JAMES KERR SCHLOSSER filed articles of
incorporation with the Nevada Secretary of
State for an organization bearing the name
The Office of the Overseer of The Berean
Medical Mission and His Successor, a Corpo­
ration Sole. Defendant SCHLOSSER attemp­
ted to conceal and assign income to this
artificial entity that he had earned from the
sale of medical supplies and surgical equip­
ment;

c.

on or about November 29, 1999, defendant
JAMES KERR SCHLOSSER filed articles of
incorporation with the Nevada Secretary of
State for an organization bearing the name
The Office of The President of Surgical
Resource Group and His Successors, a Corpo­
rate
Sole.
Defendant
SCHLOSSER
attempted to conceal and assign Income to
this artificial entity that he had earned from
the sale of medical supplies and surgical
equipment;

d.

on or about May 17, 2001, defendant JAMES
KERR SCHLOSSER opened an investment
account with Investment Company #1 in the
name of The Office of Overseer of the Berean
Medical Missions and His Successors, A
corporate Sole (Account Number XXXX-1566);

e.

on or about February 7, 2003, defendant
JAMES KERR SCHLOSSER filed a trust

App.57a
formation document with the Nevada Secret­
ary of State for an organization bearing the
name of Surgical Resource Business Trust.
Defendant SCHLOSSER attempted to conceal
and assign income to this artificial entity that
he had earned from the sale of medical
supplies and surgical equipment;
f.

on or about February 7, 2003, defendant
JAMES KERR SCHLOSSER filed a trust
formation document with the Nevada Secret­
ary of State for an organization bearing the
name of Lightsource Medical Business Trust.
Defendant SCHLOSSER attempted to conceal
and assign income to this artificial entity that
he had earned from the sale of medical
supplies and surgical equipment;

g.

on or about November 5, 2003, defendant
JAMES KERR SCHLOSSER filed articles of
incorporation with the Nevada Secretary of
State for an organization bearing the name
The Office of the Elder of the International
Fellowship of Biblical Stewards and His
Successors, a Corporation Sole. Defendant
SCHLOSSER attempted to conceal and assign
income to this artificial entity that he had
earned from the sale of medical supplies and
surgical equipment;

h.

on or about April 26, 2004, defendant JAMES
KERR SCHLOSSER opened an investment
account with Investment Company #1 in the
name of Surgical Resource Business Trust.
The trust formation document listed a person
known to the grand jury as Person “A;”

App.58a
i.

on or about September 20, 2004, defendant
JAMES KERR SCHLOSSER opened an
investment account with Investment Com­
pany #2 in the name of Surgical Resource Busi­
ness Trust. The trust document listed a
person known to the grand jury as Person
“A;”

j.

on or about July 6, 2006, defendant JAMES
KERR SCHLOSSER opened an investment
account with Investment Company #2 in the
name of Lightsource Medical Trust. The trust
formation document named an individual as
trustee known to the grand jury as Person
“A;”

k.

on or about February 9, 2010, after being
informed by the United States Tax Court
that his request for a summary judgment
challenging the Internal Revenue Service’s
attempt to collect delinquent taxes—a deci­
sion that was affirmed by United States
Court of Appeals for the Third Circuit—
defendant SCHLOSSER continued his efforts
to prevent the Internal Revenue Service from
identifying the gross income he had earned;

1.

on or about November 2, 2012, defendant
JAMES KERR sent a letter to the Internal
Revenue Service, captioned as “Privacy Act
Request For Notification and Access,” in
which defendant SCHLOSSER complained
that the Internal Revenue Service’s correspon­
dence did not contain an Office of Manage­
ment and Budget Control Number.

App.59a

m.

on or about December 31, 2014, approximately
6 years after the United States Court of
Appeals for the Third Circuit had affirmed
the United States Tax Court’s rejection of
defendant JAMES KERR SCHLOSSER’s
Complaint for Summary Judgment, defendant
SCHLOSSER sent the Internal Revenue
Service a letter in which he complained
about a notice that he had received regarding
the nonpayment of the $1,000 civil penalty
that was assessed against him by the United
States Tax Court.

All in violation of Title 26, United States Code,
Section 7212(a).

App.60a

COUNT TWO
The Grand Jury Further Charges That:
1. Paragraphs 1-7, 9-18 and 26-37 of Count One
are incorporated here.
2. From on or about January 1, 2012 to on or about
December 31, 2012, in in the Eastern District of
Pennsylvania and elsewhere, defendant

James Kerr Schlosser
A resident of Bird-in-Hand, Pennsylvania received
gross income substantially in excess of the minimum
filing requirement, as set forth below, and that by
reason of such gross income he was required by law,
following the close of each calendar year and on or
before April 15 of the following year, to make an
income tax return to the Director, Internal Revenue
Service Center, at Philadelphia, Pennsylvania, or
other proper officer of the United States, stating spe­
cifically the items of his gross income and any
deductions and credits to which he was entitled; that
knowing this, he willfully failed to make an income tax
return to the Director of the Internal Revenue Service
Center, or to any other proper office of the United
States:
Filing
Status

Filer’s Age

Gross
Income
Threshold

SelfEmployed

Single

Younger
than 65

$9,500

$400

Head of
Household

Younger
than 65

$12,500

$400

App.61a
Married,
filing
jointly

Younger
$19,500
than
65
(both
spouses

$400

All in violation of Title 26, United States Code,
Section 7203.
COUNT THREE
The Grand Jury Further Charges That:
1. Paragraphs 1-7, 9-18 and 26-37 of Count One
are incorporated here.
2. From on or about January 1, 2013 to on or about
December 31, 2013, in the Eastern District of Penns­
ylvania and elsewhere, defendant

James Kerr Schlosser
a resident of Bird-in-Hand, Pennsylvania received
gross income substantially in excess of the minimum
filing requirement, as set forth below, and that by
reason of such gross income he was required by law,
following the close of each calendar year and on or
before April 15 of the following year, to make an
income tax return to the Director, Internal Revenue
Service Center, at Philadelphia, Pennsylvania, or other
proper officer of the United States, stating specifically
the items of his gross income and any deductions and
credits to which he was entitled; that knowing this, he
willfully failed to make an income tax return to the
Director of the Internal Revenue Service Center, or to
any other proper office of the United States:

App.62a

Filing
Status

Filer’s Age

Gross
Income
Threshold

SelfEmployed

Single

Younger
than 65

$ 10,000

$400

Head of
Household

Younger
than 65

$11,500

$400

Married,
filing
jointly

Younger
than
65
(both
spouses

$12,850

$400

All in violation of Title 26, United States Code,
Section 7203.

A True Bill:
Grand Jury Foreperson

Zane David Memeger
United States Attorney

App.63a
NOTICE OF INTENT TO OFFSET
(MAY 2, 2018)
U.S. DEPARTMENT OF JUSTICE
Pennsylvania-Eastern
615 Chestnut St., Suite 1250
Philadelphia, PA 19106
James Kerr Schlosser,
2645 Stumptown Rd.
Bird-In-Hand, PA 17505
Date of Notice 05/02/2018
Account Number
Court Number 16/CR-178/041
Balance Due $ 408,741.36
Tax ID Number XXXXXX-9979
This office is responsible for collecting a debt you
owe as a result of a judgment in favor of the United
States. This debt may include additional costs, interest,
penalties, and a surcharge which are not reflected in
the amount shown above. A United States District
Court entered a judgment against you and established
the amount due. The District Court judgment is a final
decision that you owe this debt to the United States.
We strongly urge you to pay this debt immediately.
Make vour payment payable to the Clerk of Court.
Please include vour court number on vour payment.
If you do not pay vour debt. Federal law allows
agencies to refer debts to the United States Department
of the Treasury for the purpose of collecting debts
through the Treasury Offset Program. Under this
program, the Department of the Treasury will reduce

App.64a
or withhold any of your eligible Federal payments (see
list of federal payments eligible for offset on the back
of this notice) by the amount of your debt. This “offset”
process is authorized by the Debt Collection Act of
1982. as amended by the Debt Collection
Improvement Act of 1996. and the Internal Revenue
Code. Under these statutes, prior to referring a debt
for offset, a federal agency must: (l) notify the debtor
who is responsible for the debt that the agency plans
to refer the debt to the Department of the Treasury for
the offset of any pending federal payments; (2) deter­
mine that the debt is past-due and legally enforceable
after providing the debtor at least 60 days in which to
present evidence to the contrary; and (3) make reason­
able efforts to collect the debt. The purpose of this
notice is to meet these requirements.
To avoid referral of vour debt to the Treasury
Offset Program, within 60 calendar days from the date
of this notice you must: (l) pay vour debt in full: or (2)
enter into a repayment agreement: or (3) present evi­
dence that all or part of the criminal or the civil judg­
ment debt is not past due or that the judgment debt
has been staved or satisfied. You must send any evi­
dence to the Department of Justice, United States
Attorney’s office address on this notice. Any false
statements could subject you to applicable civil or
criminal penalties. The United States Attorney’s office
Financial Litigation Unit will review any evidence you
present and take appropriate action.
Payment must be received by the PAYMENT DUE
Date in order for your payment to be applied before the
next billing cycle.
Account Number:
Name: James Kerr Schlosser

App.65a

Court number: 16-CR-178-01
Payment Due Date: Immediately
Total amount due $408,741.36
If you fail to take any of the above steps within
the 60 day time period, the Department of Justice will
refer the debt to the Department of the Treasury and
any and all payments due to you from the Federal gov­
ernment will be offset to nay the amount of your judg­
ment debt. You should be aware that any money offset
from federal payments due to you will be applied to the
amount you owe along with a servicing fee. You are
responsible for paving any remaining balance after an
offset is taken. If you fail to do so. vour name will con­
tinue to be included in the Department of the
Treasury database of debtors, and any future federal
payment due to you will be offset until the debt is
totally satisfied.
PLEASE NOTE: If you are currently on a payment
plan and you default on this payment plan, this debt
may be submitted to the Department of the Treasury
for inclusion in the Treasury Offset Program. You will
not receive another notice from this office. Payments
eligible for offset include:
•

Federal income tax refunds;

•

Federal salary pay, including the military

•

Federal retirement pay, including military
retirement pay;

•

Certain federal benefit payments, such as Social
Security, Railroad Retirement (other than tier
2), and Black Lung (part B) benefits (when
regulations are published); and

App.66a

•

Other federal payments, including certain loans
to you that are not exempt from offset.

•

Payments made by States
ADDITIONAL INFORMATION

ARE YOU A FEDERAL EMPLOYEE, MEMBER
OF THE ARMED FORCES (INCLUDING CIVILIAN
EMPLOYEES)? If so, amounts from your salary and
retirement pay may be offset to satisfy your debt
beginning in the pay period that your debt is submitted
to the Department of the Treasury for offset, and
continuing every pay period until your debt, including
interest, penalties and other costs, is paid in full. In
accordance with Section 5514 of Title 5, United States
Code, you may be entitled to a hearing to dispute the
amount of the payroll deduction.
Active duty service members may have limited
protections under the Service members Civil Relief
Act of 2003.
ARE YOU MARRIED? If so, your spouse may be
eligible to receive a portion of a joint refund. To do
this, the following must be true: l) you must file a joint
income tax return; 2) you must have incurred this debt
separately from your spouse and your spouse must
have no legal responsibility for the debt; and 3) your
spouse must have income and withholding or
estimated tax payments. Taxpayers filing joint returns
should obtain Form 8379, Injured Spouse Claim and
Allocation, before filing a return. The instructions will
explain the steps your spouse may take to obtain
his/her share of your joint income tax refund.
HAVE YOU FILED FOR BANKRUPTCY? If so,
then you may not be subject to offset while the

App.67a

automatic stay remains in effect. However, you should
notify the United States Attorney’s Financial Litigation
Unit of your bankruptcy.

App.68a

SUMMARY OF WITNESS
TESTIMONY AND RECORDS

W4

Lvn Biting, Supervisory Tax Examining Assis­
tant IRS: Philadelphia Compliance Services:
Insolvency Operation 11601 Roosevelt Blvd.
Philadelphia. PA 19255 215-516-4998

W4-1

Memorandum
of Interview,
dated March
19, 2009

SCHLOSSER's telephone
Inquiry was mis-routed to
her department. There is no
record of SCHLOSSER filing
for bankruptcy. She was un­
able to determine what was
discussed with Schlosser
because not all taxpayer
contacts are documented on a
computer system.

W4-2

Memorandum
of Interview,
dated March
23, 2009

Based on her review of
SCHLOSSER's letter and
TXMOD. her employee, Ms.
Harth, followed proper proce­
dures. Ms. Harth advised
SCHLOSSER that the lew
was released on 07/03/2006.

App.69a

Wl-34

Letter from
Schlosser.
January 21
2010

Written protest to Letter CP501 regarding civil penalty
Imposed by tax court or 199412. Schlosser asserts stat­
ute of limitations expired.
Also slates that he has reli­
gious objection to using an
SSN and has not done so
since 1994.

Wl-35

Letter
from
SCHLOSSER
dated January
21, 2010, writ­
ten protest to
Letter CP 501

Written protest to Letter CP501. dated 01/18/2010. re­
questing payment for civil
penalty for tax period 12/31/
1994 (Imposed by Tax
Court). SCHLOSSER Incor­
rectly responded that the
alleged tax owed Is older
than ten years and Is no
longer collectible because the
statute of limitations has run
out. Furthermore, he has a
religious objection to using an
SSN and has not done so
since 1994. He does not have
a legal obligation-to pay Into
the system.

App.70a

Internal Revenue Service Criminal Investigation
Memorandum of Interview
In Re: James Kerr SCHLOSSER
Location: Telephonically 215-861-1413
Investigation #: 1000209254
Date: 03/16/2009
Time: 03:20 p.m. to 04:10 p.m.
Participant(s): Brenda Williams-Downing, Revenue
Officer Advisor Michael A. Castellano,
Special Agent
On the above date and time, I spoke with Brenda
Williams-Downing, Revenue Officer Advisor for Small
Business Self-Employed, located in Philadelphia, PA.
Williams- Downing provided the following information
regarding the Form 4442, Enquiry Referral, dated
February 20, 2009.
4. This lien was never re-filed. The assigned
Revenue Officer should have re-filed the lien by 08/
27/2007. Collection may be barred from re-filing the
liens, but-she will have to do -some research. I advised
her that the purpose of me contacting her was to deter­
mine what SCHLOSSER requested and what infor­
mation was provided. I told her that I was not
requesting that she take any action.
5. She started a file on SCHLOSSER after she
received the F4442. She has a copy of the original lien
and a copy of the lien release, which she will mail to
me. She has no other documents.

App.71a
TRIAL EXHIBIT 22- IRS/CI
MEMORANDUM OF INTERVIEW
(JUNE 15, 2009)
In Re: James Kerr SCHLOSSER
Investigation #: 1000209254
Date: 06/15/2009
Time: 10:18a.m. to 11.44 p.m.
Participant(s): Peter L. Costanzo, Jr., Financial Consul­
tant Kevin L. Bradley. First Vice-President and Branch.
Manager • Bee Bradley, Regulatory Compliance Man­
ager and Counsel Michael A. DeVito, Special Agent
Michael A. Castellano, Special Agent
1.) On the above date, time, and place, Special
Agent (S/A) DeVito and I went to the Jannev
Montgomery Scott (JMS) office to interview
Peter L Costanzo (hereafter referred to as
Costanzo), Financial Consultant We intro­
duced ourselves to the receptionist, displayed
our credentials for her inspection and re­
quested to speak to Costanzo. A short white
later, Kevin L Bradley, First Vice-President
and Branch Manager arrived and escorted us
to the conference room. We introduced
ourselves, display our credentials for his
inspection, advised him we were assisting
the United States Attorney’s Office for the
Eastern District of Pennsylvania with a
grand jury investigation relating to James
Kerr SCHLOSSER (hereafter referred to as
SCHLOSSER), and wanted to speak to
Costanzo relative to his business activities
with SCHLOSSER. Mr. Bradley requested

App.72a
that we wait in the conference room because
he wanted to contact JMS counsel before he
spoke with us. I advised Mr. Bradley that we
previously issued a grand jury subpoena for
records and wanted to ask Costanzo
questions regarding those records.
2.) Kevin Bradley mentioned that he was aware
of the investigation because agent Ramos
had been to his office previously. I advised
that Ms. Ramos was a Revenue Officer and
not an agent He felt that. Ms. Ramos was
aggressive and may have caused his front
office employees to provide information about
their former client. SCHLOSSER. which
potentially should not have released without
a legal summons. He was not present when
Ms. Ramos came to the office and did not
elaborate on what information was released.
We explained that Ms. Ramos was not a
special agent, but that she worked for the
civil collection division of the Internal
Revenue Service (IRS). Kevin Bradley will
fully cooperate with law enforcement, but
only after consulting with counsel. He
apologized and we advised he was in his
legal....

App.73a
SSA CERTIFIED FOIA RESPONSE
(JANUARY 28, 2013)
Social Security Administration
Certification
Pursuant to the provisions of Title 42, United
States Code, Section 3505, and the authority vested in
me by 45 F. R. 47245-46, I hereby certify that I have
legal custody of certain records, documents, and other
information established. I certify such fact being true
and correct, substantiated by the records maintained
by the Social Security Administration, pursuant to
Title 42, United States Code, Section 405.
I certify that all signatures of Social Security
Administration officials on the annexed document(s)
are genuine and made pursuant to the signers’ official
capacity.
I further certify that the annexed computer
printouts showing the dates the information was
recorded are true and complete copies of such docu­
ments in my custody for Social Security number XXXXX-9979 in the name of James Kerr Schlosser.
IN WITNESS WHEREOF, I have hereunto set my
hand and caused the seal of the Social Security
Administration to be affixed this 28th day of January,
2013.
/s/ Stephanie S. Harrison
Director
Division of Earnings
Record Operations
Office of Central Operations

App.74a

TRIAL EXHIBIT 10-INCLUDES 41A RESPONSE
TO BANK RE: SSN & RELIGIOUS BELIEFS
(APRIL 20, 2006)
James Kerr, Schlosser
do general delivery @
2645 Stumptown Road
Bird-in-Hand, (17505) Pennsylvania
Mennonite Financial
2160 Lincoln Hwy East, PO 10455
Lancaster, PA 17605
Attn: Larry Miller, President and C.E.O.
Michael Zehr, Vice President and CFO
Sandy Hershey, Vice President Operations
Tel: 717-735-8330
Fax: 717-735-8331
Scottdale Branch
616 Walnut Avenue
Scottdale, PA 15683, 800-322-0440
Deborah Millslagle, Branch Manager, Compliance
Tel: 724-887-4830
Fax: 724-887-6977
Dear Larry Michael and Sandy,
It was nice to meet you all briefly in the office on
Tuesday while I was doing errands in my workout
cloths. Forgive my casual attire as I was not planning
on that meeting . . .
Regarding your request (demand) for a SSN or TIN
for my families accounts, as I received your most recent
letter on Saturday, April 15th, and a form type letter
dated November 17th, 2005 from Deborah Millslagle.
In the first letter, she stated that: “The United States
government requires that we have a signed W-9 form

App.75a
for all of our accounts. If we do not, we may be required
to withhold up to 31% of the dividends which the
account earns.” I did not respond as it did not apply to
mv families accounts as these are non-interestbearing accounts, and there are not any dividends.
Please send me the law(s) that would require a.
numerical identifier in these accounts.
I understand that you-are currently registered as
a Federal Credit Union so you have to meet certain
requirements to meet their certification. You seem to
be under threats or pressure these State. Federal or
Private Agencies to conform to their demands, but I)
currently believe that their requirements would not
apply to our accounts. I want to be able to help you
meet this demand/request to provide you with a SSN
or TIN, if in fact those requirements do apply to us. I
will need some help from you and an extension on the
time that you are threatening to close these accounts.
as that would be very damaging to us. financially.
emotionally and socially, just because of mv deeply
held religious beliefs. I do not believe that the April
29th date is either fair or necessary and this heavy
emotional burden with everything else I have going on
right now is overwhelming.
First I would like a copy of all of the laws and cor­
respondence regarding this demand from them and you
for a SSN-TIN for these non-interest bearing account
forwarded to me, as well as copies of all law(s) that
would require that you close the account instead of
taking out 31% (even if there were any dividends), as
your November 17th letter stated. This is very
important as I have studied many of the laws that
govern these numbers and I do not believe that they
currently apply to me.

App.76a
Secondly I would like to ask what other forms
beside a W-9 are acceptable to meet this requirement
in all situations. I want to obey all lawful government
requests that apply to me as a Christian Citizen in
Pennsylvania. This information will enable me to:
“walk circumspectly. (i.e. looking around with know­
ledge of the surroundings), for you enemy the devil is
seeking who he may devour... ”, “to be wise as
serpents and innocent as doves”. I will need this infor­
mation to check to see if what these agencies are
telling you is true as not all laws that the government
enforces apply to every man or situation.
There are many instances in scripture where man’s
laws conflict with God’s laws or believers deeply held
religious beliefs based on Scriptural principals. I
believe that it is the mature educated believers
mandated duty to stand their ground, not comply with
ungodly laws, rules or principals. If we are to be salt
and light to a diseased and dark world when we are
confronted with corruption or darkness we musts be
“worth our salt”, and “not be ignorant of his devices”.
As the only Mennonite Financial Institution you
may be aware of the Religious Freedoms Restoration
Act of 1993. 42 U.S.C. 2000bb et seq.. (RFRA) a Federal
Law which was enacted in-part because past tendencies
of overzealous government agents or agencies railroadMg over Citizens inalienable God-Given Rights and
freedoms under the color of law, because of their man­
made laws, rules and regulations. By way of example
I am enclosing a recent Supreme Court case where the
a religious sect successfully defeated the governments
denial of their free use of hoasca tea, a dangerous and
controlled substance derived from plants in the Amazon
region, (similar to pevote mushrooms) that they use in

App.77a

a sacramental ritual. The highest court in our land
recently acknowledged their religious freedom and
authoritative application of RFRA even in that
instance.
I just mention this so that you see that many
people from all religions have exceptions and exemp­
tions every day to certain laws, and that is OK. it’s
legal. I know that our accounts cannot be the only
accounts where vour customers have a religious or
political objection to using a SSN and instead of just
automatically believing the authorities and princi­
palities I adjure you to look into some of these issues
yourself and to not act hastily.
I need to again reiterate that I have had a held
religious objection to Social Security for many years
since I studied this out. I have a letter from SSA that
states that “a social security number is not required to
live or to work in the United States.” I object to anv
government benefit that would replace a God-given
mandate or responsibility. I believe that putting mv
future “security” and old-age benefits in the hands of
men is contrary to the principals in Jeremiah 17: 5 86
6. II Chronicles 16:7 and many New Testament
scriptures. I Cor. 7:21-23 encourages believers to stay
free from enslavement when they can, and I see using a
SSN makes me an insurable interest in the COR­
PORATE UNITED STATES, a federal corporation.
(There are at least 3 definitions for the United Statesand different laws invoke different definitions.) I just
want to let God provide for us through His ways.
Revelation 13: 16-17 states that: “and he causeth
all, both small and great, rich and poor, free and bond
to receive a mark in their right hand or thenforeheads: 17 And that no man might buy or sell save

App.78a
that he had the mark, or the name of the beast or the
number of his name ...” Lately with the stepped up
Patriot Act rules and regulations make it almost
impossible to live without using this SSN number, and
I believe that it is. or is a forerunner to this mark of
the beast, which has been and will probably be
implanted in the RFID chips like they axe using for
the animal identification programs right now.
You seemed shocked when I mentioned the-animal
tracking issue; it is huge and happening right NOW in
many states. There is a huge Federal push to get people
and animals enumerated and upon further study you
may see that supporting this type of a program, (IF
YOU DO NOT HAVE TO) may be more damaging to
the cause of Christ, that objecting to it or not supporting
it. I hope to hear from you soon, and thank you for your
time.
In Christ,
/s/ James Kerr. Schlosser
c/o general delivery @
2645 Stumptown Road
Bird-in-Hand, (17505)
Pennsylvania
Membership Application of
Religious Objection Prosecutor’s Claim
Primary member
Name: James Kerr Schlosser
Birth Date: August 23, 2007
Social Security/ Tax identification number:

App.79a

Religious Objection on file
Street Address: C/O B.M.M. 2645 Stumptown Rd
Village: Blvd-In-hard, (17505-9999)
State: Pennsylvania
Postal Code: (17505-9999)
Country: Pa. United States of America
Phone: 717-656-2774, 717-371-6964
Membership Eligibility: Stumptown Mennonite/
3-in Lmtt System
Email Address: excellenceshydrosoff.net
Savings & loan accounts
PRIMARY SAVINGS: Membership Requires a
minimum deposit of $25 into a primary savings. This
money is yours, but $25 must remain in the account
as long as you are a member. Send your initial deposit
with this application, and you are eligible for these
additional services:
[

★ "k ic

]

App.80a
TRIAL EXHIBIT 8
LAWYERS SSN OBJECTION TO PENNDOT
(APRIL 8, 2004)
Clymer & Musser P C
Attorneys at Law
23 North Lime Street
Post Office Box 1766
Lancaster PA 17608-1766
(717) 299-7101
Fax (717)299-5115
E-Mail law@clymer.net (717) 786-0500
April 8, 2004
Jim and Schlosser
c/o of General Delivery at
2645 Stumptown Road
Bird-in-Hand, (17505) Pennsylvania
Dear Jim:
Please find attached the letters sent by certified
mail to the state.
Sincerely yours,
/s/ Randall L. Wenger

App.81a

ATTORNEY WENGER LETTER TO
PENNDOT FOR APPELLANT
(APRIL 8, 2004)
Clymer & Musser P C
Attorneys at Law
23 North Lime Street
Post Office Box 1766
Lancaster PA 17608-1766
(717) 299-7101
Fax (717) 299-5115
E-Mail law@clymer.net (717) 786-0500
April 8, 2004
Rebecca L. Bickley, Director
Bureau of Driver Licensing
Commonwealth of Pennsylvania
Department of Transportation
Harrisburg, Pennsylvania 17123
RE: Driver’s License for James Kerr, Schlosser
Dear Mrs. Bickley,
Mr. Schlosser has engaged our firm in order to
assist him in getting a Pennsylvania Driver’s License.
He has been denied a license merely because he is
unable to provide a Social Security number due to his
sincerely held religious beliefs as per his previous cor­
respondence.
As you are aware, the Religious Freedom Protec­
tion Act (hereinafter “RFPA”), 71 P.S. § 2401 et sea..
provides that “neither State nor local government should
substantially burden the free exercise of religion without

App.82a
compelling justification.” § 2402(l). “Substantially
burden” is defined as an “agency action which” “Mompels conduct or expression which violates a specific
tenet of a person’s religious faith.” § 2403(4). As Mr.
Schlosser has notified you in the past, the provision.
or utilization of a Social Security number violates spe­
cific tenets of Mr. Schlosser’s religious faith in that he
believes the Social Security number to be a forerunner
of the “Mark of the mentioned in the Book of Revela­
tion and that any Association with the number, there­
fore. would be a violations of his religious conscience.
We recognize that 75 Pa.C.S.A. § 1510 provides
that an applicant for a Driver’s, License shall, except
as otherwise provided, “include Social Security number
on his license application.” § 1510(a). However, the
RFPA applies to all statutes whether enacted prior to
or after RFPA, except for a few inapplicable areas of
the law. See § 2406. The Bureau of Driver Licensing,
therefore, “shall not substantially burden” Mr. Schlos­
ser’s religious exercise by requiring his to provide or
Utilize a Social Security number, even though the
burden “results from a rule of general applicability.”
§ 2404(a).
The only wav under RFPA that the Bureau can
burden Mr. Schlosser’s religious exercise is if the
provision of a Social Security number is the ‘least
restrictive means of furthering the compelling interest”
of the Bureau § 2404(b)(2). As you are well aware.
section 1501(a) and (f) provides that under different
circumstances an applicant need not provide a Social
Security number. Since there are other circumstances
in which the Bureau can further its interest in
identifying applicants without the use of a Social
Security number, and since section 2404(b)(2) requires

App.83a
that the Bureau further any “compelling interest’ by
the “least restrictive means”, less restrictive means
must be available here for identifying Mr. Schlosser
for purposes of his application.
This letter is being sent to you in a spirit of
cooperation, in hones that you will take necessary
steps to accommodate Mr. Schlosser’s religious beliefs
when he again applies for a Driver’s License. We ask
that you provide a letter that Mr. Schlosser can submit
with his application to clarify his right, to whomever
he submits the application, that, due to his religious
beliefs, he need not supply a Social Security number.
If. instead, you are unwilling to issue a Driver’s
License in the absence of his providing a Social Security
number, let this letter serve as notice under section
2405(b) that Mr. Schlosser’s free exercise of religion
has been substantially burdened by exercise of the
Bureau’s requirement under its government authority
that a Social Security number be provided in order to
get a Driver’s License since provision of a Social
Security number violates Mr. Schlosser’s religious
beliefs. We are of course, prepared to file an action in
court seeking injunctive and declaratory relief and the
award of attorney’s fees for violation of RFPA. See
$ 2505(e)-(f). We may also seek remedies under other
legal theories as well. I have every hope, however, of a
more amicable outcome.
I look forward to hearing from you within the next
week.

Very truly yours,
Is/ Randall L. Wenger

App.84a
RESPONSE FROM
SSA COMMISSIONER RE: NO SSN ON DL
(OCTOBER 20, 2004)
SOCIAL SECURITY
TEH2A
PB7882
Mr. James K. Schlosser
General Delivery
2645 Stumptown Road
Bird-in-Hand, Pennsylvania 17505
Dear Mr. Schlosser:
This is in response to your letter to Commissioner
Barnhart concerning the requirement that an individual
disclose his or her Social Security number (SSN) to
obtain a driver’s license and vour request that the
Social Security Administration (SSA) provide you and
vour wife with a letter permitting you both not to have
an SSN. We regret the delay in replying.
We can understand your concerns regarding
whether you and your wife are required to provide
your SSNs to obtain a Pennsylvania driver’s license.However, we cannot comply with vour request for a
letter permitting an individual not to have an SSN.
Participation in the Social Security program is
mandatory with respect to the payment of Social
Security taxes, regardless of the citizenship or place of
residence of either the employer or the employee.
Unless specifically exempt by law, everyone working
in the United States is required to pay Social Security
taxes on earnings from covered employment. The law

App.85a
provides an exemption only in very limited circum­
stances for members of certain religious sects. People
generally cannot voluntarily withdraw from or termin­
ate their participation in the Social Security program.
Similarly, people cannot withdraw the Social
Security taxes that they have already paid. This is
true regardless of the number of Social Security credits
earned or whether benefits are payable. The Social
Security taxes that employees and employers pay on
workers’ earnings are not placed in an individual
worker’s account, but are pooled in special funds from
which benefits are paid to eligible workers and their
families. However, people will not receive benefits
unless they voluntarily apply for them at the time
they become eligible.
When someone has applied for and been assigned
a SSN. we may not cancel or destroy that record. The
Privacy Act of 1974 authorizes agencies to maintain in
their records any information about a person that is
relevant and necessary to accomplish a purpose of the
agency that is required by law. We are required by law
to establish and maintain records of wages and selfemployment income for each person whose work is
covered under the program. The SSN is considered
relevant and necessary for that record keeping purpose.
Consequently, valid SSNs are permanently part of
SSA’s records.
Some people ask that their SSNs be revoked
because they did not complete the application; their
parents did. These requests are denied. If an SSN is
requested for someone who is either under age 18 or
age 18 or older and physically or mentally incapable
of signing the application, the parent is a proper appli­
cant.

App.86a
We are aware of public concerns about the increas­
ing uses of the SSN for identification and record
keeping purposes. Although Federal laws do restrict
the use and disclosure of SSNs. these laws do not
apply to the private sector.
Businesses, private agencies, etc., are free to
request someone’s SSN and use it for any purpose that
does not violate a Federal or State law. (Some busi­
nesses. for example, sell their SSN information to
other businesses bv computer networks.) Anyone can
refuse to disclose his or her number, but the requester
can refuse its services without it.
Voluntarily giving a SSN to businesses or other
organizations does not give them access to Social
Security records. We require additional identification
to avoid unauthorized access to and/or disclosure of
personal Social Security information. The privacy of a
person’s record is legally guaranteed unless the law
requires (l) the disclosure to another government
agency or (2) the information to conduct Social Security
or other government health or welfare programs. Ha
Ha are-and always have been-vigilant about protecting
the privacy of information we maintain in our records.
Also, the Tax Reform Act of 1976 permits State and
local governments to use SSNs in administering their
tax, public assistance, driver’s license, and vehicle
registration programs. Thus, the State or local govern­
ment may require a person who has or is eligible to have
a SSN to provide it for these purposes.
Federal law [at U.S.C. 666(a)(l3)(A)] requires
that applicants for various State licenses or documents
supply their SSNs so that States can use them for
child support enforcement purposes. Examples of such

App.87a
licenses or documents include, but are not limited to
drivers’ licenses, professional licenses, marriage licen­
ses, divorce decrees, support order, paternity acknow­
ledgements or determinations, and death certificates.
We hope you End this information helpful.
Sincerely,
/

/s/ Annie White
Associate Commissioner
Office of Public Inquiries

Blank Page

Supreme Court
PRESS

I (

